VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS




                                                                    Veterans Health

                                                                    Administration

                                                                          Audit of

                                                                     Non-Purchase Card

                                                                      Micro-Purchases





                                                                                    August 9, 2013
                                                                                     12-01860-237

             ACRONYMS AND ABBREVIATIONS


FAR          Federal Acquisition Regulation
FMS          Financial Management System
FSC          Financial Service Center
OIG          Office of Inspector General
P&LO         Procurement and Logistics Office
VA           Veterans Affairs
VHA          Veterans Health Administration
VISN         Veterans Integrated Service Network




       To Report Suspected Wrongdoing in VA Programs and Operations:

                            Telephone: 1-800-488-8244

                           Email: vaoighotline@va.gov

                      (On the Web: www.va..gov/oig/hotline

                       Report Highlights: Audit of VHA’s
                       Non-Purchase Card Micro-Purchases

Why We Did This Audit                             Management to establish policies and
                                                  procedures to regularly identify and evaluate
During FY 2012, the Veterans Health               the universe of micro-purchases and establish
Administration (VHA) spent about $3 billion       annual and long-term strategic goals to
on micro-purchases of $3,000 or less for          increase the percentage of VA medical facility
supplies and services. VA’s Purchase Card         purchase card micro-purchases.
Program allows VHA to streamline the
procurement process and earn rebates from         Additionally, we recommend the Under
purchase card use. We conducted this audit to     Secretary collaborate with the VA Office of
evaluate whether opportunities exist for VA       Management to implement mechanisms to
medical facilities to increase purchasing         ensure purchasers and approvers adequately
efficiency and cost-effectiveness by increasing   consider     purchase     card   use    for
purchase card use for micro-purchases.            micro-purchases—including requiring VISNs
                                                  to perform oversight of non-purchase card
                                                  micro-purchases.
What We Found
Although VHA has increased purchase card          Agency Comments
use over the past 5 years, opportunities still
exist for VHA to achieve significant              The Under Secretary for Health concurred
procurement savings. We estimated VHA             with our findings and recommendations, and
could decrease procurement-processing costs       plans to complete all corrective actions by
by about $20 million and receive additional       December 31, 2013. We consider these
rebates of about $4 million annually by           actions acceptable and will follow up on their
maximizing    purchase     card   use     for     implementation.
micro-purchases.

VHA did not identify the universe of
micro-purchases and establish yearly goals for
using purchase cards. Additionally, VHA did                 LINDA A. HALLIDAY
not implement mechanisms to ensure purchase              Assistant Inspector General
card use and establish policies and procedures           for Audits and Evaluations
requiring the Veterans Integrated Service
Networks (VISNs) to perform oversight of
non-purchase card micro-purchases. As a
result, VHA could miss opportunities to
achieve procurement savings ranging from
approximately $102 to $133 million over the
next 5 years with a point estimate of
$120 million.

What We Recommend
We recommend the Under Secretary for
Health collaborate with the VA Office of

                                                                                               i
                                           TABLE OF CONTENTS


Introduction......................................................................................................................................1


Results and Recommendations ........................................................................................................2


    Finding                VA Medical Facilities Can Achieve Significant Procurement Savings..............2

                          Recommendations ...............................................................................................9

Appendix A                 Scope and Methodology....................................................................................10

Appendix B                 Statistical Sampling Methodology ....................................................................12

Appendix C                 Categories of Non-Purchase Card Micro-Purchases.........................................14

Appendix D                 Potential Monetary Benefits in Accordance With Inspector General Act
                           Amendments .....................................................................................................15

Appendix E                 Under Secretary for Health Comments .............................................................16

Appendix F                 Office of Inspector General Contact and Staff Acknowledgments...................19

Appendix G                 Report Distribution ...........................................................................................20




                                                                                                                                                 ii
                                                Audit of VHA’s Non-Purchase Card Micro-Purchases



                    INTRODUCTION
Objective           This audit evaluated whether opportunities exist for VA medical facilities to
                    increase purchasing efficiency and cost-effectiveness by increasing use of
                    purchase cards for micro-purchases. We initiated this audit in response to an
                    allegation made through the VA Office of Inspector General (OIG) Hotline
                    in May 2011. The complainant alleged that one medical facility within a
                    Veterans Health Administration (VHA), Veterans Integrated Service
                    Network (VISN) missed rebate opportunities by not using purchase cards to
                    the maximum extent possible. We expanded the scope of our audit work to
                    determine if this was a VHA systemic issue.

Purchase Card       The General Services Administration’s SmartPay2 program provides
Program and         purchase cards to Federal agencies through contracts negotiated with
Rebates             contractor banks (Citibank, JPMorgan Chase & Co., and U.S. Bank).
                    Purchase cards provide Federal agencies with a purchase and payment tool
                    that implements simplified acquisition procedures, which streamline the
                    procurement process by quickly ordering and paying for supplies and
                    services. Another key benefit of purchase card use is obtaining rebates from
                    contractor banks that represent about 2 percent of the dollar amount of
                    transactions.   During FY 2012, VHA spent about 3 billion on
                    micro-purchases of $3,000 or less for supplies and services. As a result,
                    VHA earned and received over $65 million in rebates.

Micro-              The Federal Acquisition Regulation (FAR) defines a micro-purchase as an
Purchases           acquisition of supplies or services using simplified acquisition procedures,
                    where the aggregate amount does not exceed $3,000. FAR establishes a
                    lower micro-purchase threshold of $2,500 for acquisitions of services subject
                    to the Service Contract Act and $2,000 for construction-related acquisitions
                    subject to the Davis-Bacon Act.

Responsible         VA’s Office of Finance provides VA-wide purchase card policy and
Program             procedures. VA’s Office of Acquisition and Logistics is responsible for
Offices
                    developing and assessing compliance with procurement policy and
                    procedures.   VHA’s Procurement and Logistics Office (P&LO) is
                    responsible for implementation of VHA’s Purchase Card Program’s
                    management controls and oversight.

Other               	 Appendix A details the audit scope and methodology.
Information
                    	 Appendix B shows the statistical sampling methodology used in this
                       audit.




VA Office of Inspector General                                                                 1
                                                Audit of VHA’s Non-Purchase Card Micro-Purchases



                    RESULTS AND RECOMMENDATIONS
Finding             VA Medical Facilities                 Can      Achieve        Significant
                    Procurement Savings

                    VA medical facilities missed opportunities to maximize purchase card use
                    for micro-purchases to achieve significant procurement savings. We
                    estimate VHA could have used purchase cards to make almost
                    279,000 (38 percent) of 729,000 non-purchase card micro-purchases of
                    supplies and services during the period of April 1, 2011, through
                    March 31, 2012. For these purchases, VHA missed opportunities to decrease
                    procurement-processing costs by about $20 million and obtain additional
                    rebates of about $4 million.

                    This occurred because VHA did not:

                    	 Identify the universe of purchase card micro-purchases and non-purchase
                       card micro-purchases.
                    	 Establish annual goals for using purchase cards for micro-purchases.
                    	 Implement a mechanism to ensure purchasers and approvers adequately
                       consider purchase card use for micro-purchases.
                    	 Establish policies and procedures requiring VISNs to perform oversight
                       of non-purchase card micro-purchases.

                    As a result, we projected that by decreasing transaction-processing costs and
                    earning additional rebates, VHA could achieve procurement savings ranging
                    from $20.4 to $26.6 million annually, and $102 to $133 million over the next
                    5 years with a point estimate of $120 million.

Opportunities       By not maximizing purchase card use for micro-purchases, VHA missed
to Decrease         opportunities to decrease procurement-processing costs by about $20 million
Processing          annually. Purchase card use increases overall purchasing efficiency by
Costs
                    eliminating steps from the procurement process when compared with
                    traditional purchase order procurement.

                    During April 1, 2011, through March 31, 2012, VA medical facilities used
                    purchase cards to pay for just over $2.1 billion of about $2.6 billion total
                    micro-purchases. We estimated VA medical facilities had acceptable
                    reasons for not using purchase cards for $244 million of the remaining
                    $432 million of micro-purchases. These transactions included payments to
                    vendors who did not accept purchase cards and payments to veterans for tort
                    claims and pharmacy copayments.




VA Office of Inspector General                                                                 2
                                                   Audit of VHA’s Non-Purchase Card Micro-Purchases


                    We also estimated medical facilities could have used purchase cards for
                    purchases totaling approximately $188 million annually. This would have
                    increased purchase card micro-purchases to just over $2.3 billion of the
                    $2.6 billion total micro-purchases. Figure 1 shows the dollar amounts and
                    percentages of micro-purchases where VHA used, could not have used, and
                    could have used purchase cards.

Figure 1
                                      Purchase Card Use for Micro-Purchases
                                           (Dollar Amounts - Rounded)
                                              April 2011–March 2012
                                                                 7%
                                                             $188 Milion
                                                                         10%
                                                                      $244 Milion




                                                                    Card Used
                               83%
                            $2.1 Billion                            Card Could Have Been Used
                                                                    Card Not Used - Acceptable

                      Source: VA OIG statistical analysis of VA medical facilities micro-purchases

                    Of the $188 million in micro-purchases, just over $73 million were for
                    supplies and nearly $115 million were for services. The types of supplies
                    included items such as medical and pharmaceutical, computers, and office
                    equipment. The types of services included patient transportation, utilities,
                    and employee training. Appendix C lists the categories of sampled
                    micro-purchase transactions where the eight audited VA medical facilities
                    could have used purchase cards.

Procurement         Medical facilities have two primary methods to make micro-purchases,
Methods             purchase cards and purchase orders. Purchase card use helps VA medical
                    facilities quickly procure supplies and services to ensure veterans receive
                    timely medical care. Additionally, using purchase cards helps VA medical
                    facilities pay vendors and meet Prompt Payment Act requirements.
                    Typically, processing purchase card procurements takes up to 3 days, while
                    processing purchase order procurements can take up to 30 days. Obtaining



VA Office of Inspector General                                                                       3
                                                   Audit of VHA’s Non-Purchase Card Micro-Purchases


                    supplies and services by purchase card streamlines the procurement process,
                    while using purchase orders is more complex and time consuming.

                    Table 1 compares the procurement processing steps for purchase cards and
                    purchase orders.

Table 1
                                 Procurement Methods—Comparison of Processing Steps
                                Purchase Card                           Purchase Order
                           (Average Processing Time:               (Average Processing Time:
                                 Up to 3 days)                           Up to 30 days)
                      1. Requestor creates purchase          1. Requestor/control point clerk
                         request                                creates purchase request
                      2. Cardholder places order             2. Control point official certifies
                                                                request
                      3. VA’s Financial Service Center       3. Accountable officer reviews
                         (FSC) processes payment                request and transmits to
                                                                Acquisition and Logistics Service
                                                             4. Procurement and Logistics Service
                                                                staff review request, prepare
                                                                purchase order, place order, and
                                                                transmit purchase order to Fiscal
                                                                Service
                                                             5. Fiscal Service staff review
                                                                purchase order for correct
                                                                accounting, appropriate coding,
                                                                and availability of funds
                                                             6. Fiscal Service staff obligate funds
                                                                and process receiving report
                                                             7. Control point official certifies
                                                                invoice for payment
                                                             8. FSC staff match invoice received
                                                                to receiving report and process
                                                                payment
                      Source: VA’s Office of Finance, VHA’s National Purchase Card Manager, and
                      VA Medical Facility Procurement and Logistics Staff

                    Performing the purchase order steps is a labor-intensive process. The
                    following example highlights the inefficient use of VA medical facility
                    staffing resources when using a purchase order instead of a purchase card to
                    procure supplies.

                        In April 2011, a VA medical facility employee from Nursing Service
                        created a request to purchase a label maker for about $40. After the
                        control point official and accountable officer reviewed and certified

VA Office of Inspector General                                                                        4
                                                     Audit of VHA’s Non-Purchase Card Micro-Purchases


                        the request, a Procurement and Logistics employee prepared and
                        transmitted the purchase order to Fiscal Service. Fiscal Service
                        staff reviewed the purchase order for appropriate coding and
                        availability of funds and obligated the funds. After the VA medical
                        facility received the label maker and the vendor’s invoice, the
                        control point official certified the invoice for payment by the FSC.
                        VA paid eight employees to process the purchase order and pay the
                        invoice.

                    According to a 2012 Purchasing Card Benchmark Survey, the average cost to
                    process a purchase order was $91, more than double the $40 cost of the label
                    maker.1 The survey also concluded savings from purchase card use
                    averaged $74 per transaction ($91 for a purchase order compared to $17 for a
                    purchase card transaction). VA’s Deputy Assistant Secretary for Finance
                    and VHA’s Chief Procurement and Logistics Officer agreed that the
                    estimated savings of $74 per transaction was reasonable. As a result, we
                    projected VHA can reduce annual transaction-processing costs by about
                    $20 million annually.

                    Primarily, these savings represent the difference in labor costs for processing
                    purchase card and non-purchase card transactions. By increasing purchase
                    card use, VA medical facilities can increase productivity by shifting staff
                    efforts from resource-intensive non-purchase card transaction-processing
                    costs to other medical facility activities. In particular, eliminating the time
                    contracting staff spend on processing micro-purchases is important since
                    reportedly the Federal government, including VA, is experiencing difficulty
                    in filling contracting specialist/officer positions in workforces.

Regulations on      Due to the inherent risks associated with using purchase cards, the Office of
Purchase Card       Management and Budget requires agencies to develop and implement
Use
                    sufficient controls to ensure appropriate use of purchase cards. When
                    agencies implement effective controls, they can obtain significant benefits by
                    maximizing the use of purchase cards. Consequently, the FAR includes the
                    following requirements to ensure agencies obtain these benefits.

                    	 Agencies must use simplified acquisition methods to the maximum
                       extent practicable for all purchases of supplies or services not exceeding
                       the simplified acquisition threshold (including purchases at or below the
                       micro-purchase threshold of $3,000).



                    1
                     The RPMG Research Corporation conducted the 2012 Purchasing Card Benchmark Survey
                    from November 2011 through February 2012. The RPMG Research Corporation conducts
                    the purchasing card survey bi-annually and the General Services Administration cites an
                    RPMG Research Corporation study in its November 1, 1998, through November 29, 2018,
                    Worldwide Federal Supply Service Contract for Purchase, Travel, Fleet, and Integrated Card
                    Services with Citibank, JPMorgan Chase & Co., and U.S. Bank.

VA Office of Inspector General                                                                              5
                                                Audit of VHA’s Non-Purchase Card Micro-Purchases


                    	 Purchase cards are the preferred method to purchase and pay for
                       micro-purchases.
                    	 Agencies must encourage purchase card use in greater amounts for
                       purchases against established contracts.

                    In addition to the FAR, VHA policy requires the following purchase card
                    actions.
                    	 Purchase cards must be used for procurements where vendors accept
                       purchase card payments.
                    	 Warranted individuals must aggressively promote the use of purchase
                       cards as the payment method for all contract purchases.

Opportunities       By not maximizing purchase card use for micro-purchases, VHA missed
to Increase         opportunities to obtain estimated annual rebates of almost $4 million. VA
Rebates             executives have recognized rebates and other benefits related to purchase
                    card use and have emphasized purchase card use to procure supplies and
                    services. For example, in a 2010 memorandum to key VA officials
                    regarding enhanced use of purchase cards, the then Acting Assistant
                    Secretary for Management specifically emphasized using purchase cards to
                    pay for common items, such as office supplies, mail, rent, and utilities.
                    During FY 2012, VHA spent about $3 billion on micro-purchases of
                    $3,000 or less for supplies and services.

                    Over the last 5 FYs, VHA’s reported rebates increased 51 percent from about
                    $43 million in FY 2008 to just over $65 million in FY 2012. The Office of
                    Management and Budget requires agencies to return rebates to the
                    appropriation or account from which they were expended. The eight
                    sampled VA medical facilities returned rebates to the proper accounts for use
                    in veterans’ programs. Although VHA has increased the amount of rebates
                    earned through increased purchase card use over the past 5 years,
                    opportunities still exist for VHA to earn additional rebates and achieve
                    significant procurement savings. We estimated increased VA medical
                    facility purchase card use for micro-purchases would provide VHA
                    additional rebates of about $4 million annually.

Reasons             VA medical facilities did not maximize purchase card use when making
Purchase            micro-purchases because VHA did not identify the micro-purchase universe
Cards Not           and establish sufficient goals for using purchase cards for micro-purchases.
Used                In addition, VHA did not establish a mechanism to ensure sufficient
                    consideration of purchase card use or policies and procedures requiring
                    VISNs to perform oversight of non-purchase card micro-purchases.

Micro-Purchase      P&LO did not identify the entire VHA-wide universe of non-purchase card
Universe            or purchase card micro-purchases. In addition, none of the eight medical
                    facilities identified the universe for their facilities. To assess medical


VA Office of Inspector General                                                                 6
                                                   Audit of VHA’s Non-Purchase Card Micro-Purchases


                    facilities compliance with VHA requirements to maximize purchase card use
                    for micro-purchases, VHA must regularly identify the universe and
                    determine the percent that are non-purchase card purchases.

                    In collaboration with FSC and VHA P&LO staff, we identified a universe of
                    over 5.7 million micro-purchase transactions from April 2011 through
                    March 2012. The universe included approximately 5.0 million purchase card
                    transactions.    Of the remaining 729,000 transactions, we estimated
                    approximately 450,000 (62 percent) had acceptable reasons for not using
                    purchase cards. Medical facilities could have used purchase cards for the
                    remaining 279,000 (38 percent) transactions. This would have increased
                    purchase card transactions to just over 5.3 million of the 5.7 million total
                    micro-purchase transactions.      The percentage of non-purchase card
                    transactions the eight sampled VA medical facilities could have made with
                    the purchase card ranged from 14 to 59 percent. Figure 2 shows the number
                    of transactions and percentages of micro-purchases where VHA used, could
                    not have used, and could have used purchase cards.

Figure 2
                                      Purchase Card Use for Micro-Purchases
                                        (Number of Transactions - Rounded)
                                              April 2011–March 2012

                                                          5%
                                                        279,000
                                                                  8%
                                                                450,000




                                                                     Card Used

                                                                     Card Could Have Been Used
                              87%
                           5.0 Million                               Card Not Used - Acceptable

                      Source: VA OIG statistical analysis of VA medical facilities’ micro-purchases

Purchase Card       VHA did not establish goals for medical facility use of purchase cards for
Use Goals           micro-purchases. VA’s strategic plan requires program managers to
                    establish goals that provide adequate program performance measurements.
                    For the Purchase Card Program, performance goals need to be consistent
                    with FAR and VHA requirements to maximize purchase card use for
                    micro-purchases. VA’s strategic plan also requires managers to compare

VA Office of Inspector General                                                                        7
                                                Audit of VHA’s Non-Purchase Card Micro-Purchases


                    program performance with established goals and, as appropriate, take actions
                    to help achieve performance goals.

                    VA’s then Acting Assistant Secretary for Management’s memorandum
                    regarding the enhanced use of purchase cards established a goal for VA to
                    increase purchase card spending by 8 percent from FY 2010 to 2011. While
                    this goal was a commendable step in the right direction, VHA did not set
                    goals beyond FY 2011. VHA needs to establish annual and long-term
                    strategic goals for the percentage of micro-purchases medical facilities
                    procure with purchase cards.

Mechanism           VHA needs to establish a mechanism to ensure medical facility purchase
Needed for          cardholders consistently consider purchase card use when procuring supplies
Considering         and services at or below $3,000. VHA policy stipulates that purchase cards
Purchase Card
Use                 are the preferred simplified acquisition method for micro-purchases, and
                    medical facilities must ensure cardholders comply with policies and
                    regulations to avoid splitting purchases to circumvent the
                    $3,000 micro-purchase limit.

Non-Purchase        VISN oversight of non-purchase card micro-purchases was insufficient and
Card Micro-         contributed to medical facilities not maximizing purchase card use for
Purchases
Oversight
                    micro-purchases. VHA policy requires each VISN’s Head of Contracting
                    Activity to review monthly samples of purchase card transactions to verify
                    compliance with FAR and VHA policies. When performing these reviews,
                    VHA policy require heads of Contracting Activities to evaluate transactions
                    to ensure medical facility compliance in areas such as maintaining
                    appropriate documentation, purchasing items for official use, and paying
                    reasonable prices for items.

                    While VISN monthly reviews provide oversight of purchase card
                    transactions, they do not provide oversight of non-purchase card
                    micro-purchase transactions. VHA needs to revise policies to include
                    non-purchase card micro-purchase transactions in samples selected for
                    monthly reviews. In addition, VHA policies need to include requirements to
                    evaluate sampled non-purchase card micro-purchases to identify
                    opportunities to increase medical facility use of purchase cards and help
                    achieve established purchase card use goals.
Effect of Not       VA medical facilities did not always maximize purchase card use for
Using               micro-purchases and VHA missed opportunities to achieve procurement
Purchase
Cards
                    savings. As a result, we projected that by decreasing transaction-processing
                    costs and earning additional rebates, VHA could achieve procurement
                    savings ranging from $20.4 to $26.6 million annually and $102 to
                    $133 million over the next 5 years, with a point estimate of $120 million.
Conclusion          By maximizing the use of purchase cards for micro-purchases, VHA can
                    increase purchasing efficiency and cost-effectiveness. These improvements

VA Office of Inspector General                                                                8
                                                 Audit of VHA’s Non-Purchase Card Micro-Purchases


                    will help VHA address challenges to create a more efficient, effective, and
                    coordinated acquisition program to ensure VHA protects taxpayers’ interest
                    when procuring supplies and services.         VA cannot afford to miss
                    opportunities to reduce transaction-processing costs and generate rebate
                    revenue. Medical facilities can use these savings to help improve programs
                    that provide care for our Nation’s veterans.

                    Recommendations

                    1.	 We recommended the Under Secretary for Health collaborate with the
                        VA Office of Management to establish policies and procedures to
                        regularly identify and evaluate the universe of micro-purchases and
                        non-purchase card micro-purchases to monitor the level of Veterans
                        Health Administration use of purchase cards.
                    2.	 We recommended the Under Secretary for Health establish annual and
                        long-term strategic goals to increase the percentage of VA medical
                        facility micro-purchases made with purchase cards.
                    3.	 We recommended the Under Secretary for Health implement
                        mechanisms to ensure purchasers and approvers adequately consider
                        purchase card use for micro-purchases.
                    4.	 We recommended the Under Secretary for Health modify policies and
                        procedures requiring Veterans Integrated Service Networks to perform
                        oversight of non-purchase card micro-purchases that identifies
                        opportunities for increased use of purchase cards.

Management          The Under Secretary for Health agreed with our findings and
Comments            recommendations.        VHA plans to address our recommendations by
and OIG
Response
                    December 31, 2013. The Under Secretary for Health did not agree with our
                    estimated $120 million potential monetary benefits. The Under Secretary
                    stated the categories of micro-purchase transactions listed in the report could
                    be purchased using other VHA methods of payment and may not have been
                    candidates for purchase using purchase cards. Additionally, the Under
                    Secretary requested the VA OIG publish the range of potential monetary
                    benefits in the audit report.

                    The Under Secretary’s comments and action plans were responsive to the
                    OIG’s draft report. In regard to the Under Secretary’s comment that
                    transactions may not have been candidates for using purchase cards, we only
                    included transactions where VA medical facilities could have used purchase
                    cards when estimating potential monetary benefits. As requested by the
                    Under Secretary, we revised the audit report to include the $102 to
                    $133 million range of potential monetary benefits VHA could achieve over
                    the next 5 years. Appendix E provides the full text of the Under Secretary’s
                    comments.



VA Office of Inspector General                                                                   9
                                                 Audit of VHA’s Non-Purchase Card Micro-Purchases


Appendix A          Scope and Methodology

Scope               We conducted our audit from April 2012 through May 2013. The audit
                    focused on VHA’s procurement methods for approximately
                    729,000 non-purchase card micro-purchases (transactions up to $3,000)
                    made during the period April 1, 2011, through March 31, 2012. These
                    micro-purchases included procurements with Financial Management System
                    (FMS) transaction codes identified by VA’s FSC as having the potential for
                    using purchase cards.

                    We audited a statistical sample of 530 non-purchase card micro-purchases
                    selected from a universe of approximately 729,000 non-purchase card
                    micro-purchases. We based the sample selection on FMS transaction codes
                    at eight statistically sampled VA medical facilities. Appendix B provides
                    details on the statistical sampling methodology and projections. Table 2 lists
                    the eight medical facilities we visited from May through November 2012.

Table 2
                                     Locations of Selected VA Medical Facilities
                        VISN                    Facility                        Location
                           8      Orlando VA Medical Center             Orlando, FL
                          11      John D. Dingell VA Medical Center     Detroit, MI
                          12      Edward Hines Jr. VA Hospital          Hines, IL
                          15      St. Louis Health Care System          St. Louis, MO
                          18      Phoenix VA Health Care System         Phoenix, AZ
                          19      Cheyenne VA Medical Center            Cheyenne, WY
                          20      Portland VA Medical Center            Portland, OR
                          21      San Francisco VA Medical Center       San Francisco, CA
                      Source: VA OIG random sample selection performed in consultation with
                      statistician for Office of Audits and Evaluations

Methodology         To accomplish the audit objectives, we reviewed applicable laws and VA
                    and VHA regulations, policies, procedures, handbooks, and guidelines
                    related to procurement methods. We also interviewed officials from VA’s
                    Office of Management and Chief Financial Officer, Office of Financial
                    Business Operations, FSC, National Acquisition Center, and VHA’s P&LO.

                    In addition, we interviewed procurement managers, purchase card
                    coordinators, contracting officers, and staff who participated in the
                    procurement process for the sampled purchases at the eight medical facilities
                    we visited. We also interviewed VISN representatives responsible for the
                    visited sites.    For each of the 530 sampled non-purchase card
                    micro-purchases, we reviewed purchase orders, contracts, available

VA Office of Inspector General                                                                 10
                                                 Audit of VHA’s Non-Purchase Card Micro-Purchases


                    procurement reports, and invoices. When appropriate, we also contacted the
                    vendor to determine if they accepted the Government purchase card.

Fraud               We assessed the risk of fraud, violations of legal and regulatory
Assessment          requirements, and abuse. In order to identify potentially fraudulent
                    non-purchase card procurements, we conducted specific audit steps to
                    validate invoice prices, and assess appropriate authorization and certification
                    of receipt of supplies and services. In addition, we exercised due diligence in
                    staying alert to any indications of fraud and abuse. We did not identify any
                    instances of fraud or abuse during the audit.

Data Reliability    We used computer-processed data from FMS for our analysis of
                    non-purchase card micro-purchases made during the period
                    April 1, 2011, through March 31, 2012. To test the reliability of this data,
                    we compared the computer-processed data with hardcopy documentation,
                    such as vendor invoices. We determined FMS data was sufficiently reliable
                    for the audit objectives.

Government          Our assessment of internal controls focused on those controls related to our
Standards           audit objectives. We conducted this performance audit in accordance with
                    generally accepted government auditing standards. These standards require
                    that we plan and perform the audit to obtain sufficient, appropriate evidence
                    to provide a reasonable basis for our findings and conclusions based on our
                    audit objective. We believe that the evidence obtained provides a reasonable
                    basis for our findings and conclusions based on our audit objective.




VA Office of Inspector General                                                                  11
                                                     Audit of VHA’s Non-Purchase Card Micro-Purchases


Appendix B          Statistical Sampling Methodology

Approach            To evaluate whether opportunities exist for VA medical facilities to increase
                    purchasing efficiency and cost-effectiveness, we reviewed a representative
                    sample of non-purchase card micro-purchase transactions. We used
                    statistical sampling to quantify the extent of procurements that facilities
                    could have made with a purchase card and to project potential savings.

Universe            VA’s FSC identified a VHA-wide universe of about 21 million transactions
                    that were $3,000 or less during April 1, 2011, through March 31, 2012. For
                    our audit, we reduced the universe to approximately 729,000 non-purchase
                    card transactions totaling approximately $432 million. This universe
                    excluded payments for expenses that were not possible for medical facilities
                    to use purchase cards, such as work subsistence and employee advances.

Sampling            As shown in Table 3, we used a two-stage sampling design to select a sample
Design              of 8 VA medical facilities and a total sample of 530 non-purchase card
                    micro-purchases from a universe of 16,562 transactions.

Table 3
                                       Sampled Transactions By Medical Facility
                                  Medical Facility                    Transactions       Universe
                      John D. Dingell VA Medical Center                    64              8,650
                      St. Louis Health Care System                         85              2,821
                      Edward Hines Jr. VA Hospital                         65              1,654
                      Portland VA Medical Center                           71                911
                      San Francisco VA Medical Center                      80                887
                      Phoenix VA Health Care System                        59                636
                      Orlando VA Medical Center                            48                507
                      Cheyenne VA Medical Center                           58                496
                                                            Total         530             16,562
                      Source: VA OIG random sample selection performed in consultation with
                      statistician for Office of Audits and Evaluations

                    We stratified the universe of facilities into three groups based on the total
                    dollar amount of non-purchase card micro-purchases. We then selected
                    samples of facilities using different random samples within each of the three
                    strata until we obtained a sample of facilities from eight different VISNs.
                    This sampling technique provides better precision and allows more flexibility
                    when a sample includes a large number of errors. All facilities had a chance
                    of selection, therefore, allowing estimates over the entire universe.


VA Office of Inspector General                                                                      12
                                                     Audit of VHA’s Non-Purchase Card Micro-Purchases


Weights              We computed sampling weights as a product of the inverse of the probability
                     of selection at each stage of sampling. We used these weights to compute
                     universe estimates from the sample findings.
Estimates and        We calculated universe estimates using weighted sample data. We used
Margins of           WesVar software to calculate the weighted universe estimates and associated
Error
                     sampling errors. WesVar employs replication methodology to calculate
                     margins of error and confidence intervals that correctly account for the
                     complexity of the sample design.
                     Margins of error and confidence intervals are indicators of the estimates’
                     precision. If we repeated this audit with multiple samples, the confidence
                     intervals would differ for each sample, but would include the true universe
                     value 90 percent of the time. For example, in Table 4 we are 90 percent
                     confident the true universe of non-purchase card micro-purchases that could
                     have been made with a purchase card is between 241,137 and 316,688. For
                     each estimate, we used the midpoint of the 90 percent confidence interval.
                     Table 4 shows the audit projections and number of sampled non-purchase
                     card micro-purchases for the attributes described in the table.

Table 4
                       Projections and Sampled Non-Purchase Card Micro-Purchases
                                 (Dollars in Millions) April 2011–March 2012
                                                             90% Confidence Interval      Sampled
                                                  Margin
                 Description         Estimated                                          Transactions
                                                  of Error    Lower        Upper
                                                                                       With Condition
                                                              Limit        Limit
              Purchase Card Could Be Used
              Total Transactions        278,913     37,775     241,137       316,688        183
               Percent                   38.3%       5.2%       33.1%         43.5%
               Supplies                 142,268     25,277     116,991       167,545        126
               Services                 136,645     33,344     103,301       169,989         57
              Value                      $187.8      $30.6      $157.2        $218.4
               Percent                   43.5%       7.0%       36.5%         50.5%
              Purchase Card Could Not Be Used
              Total Transactions        450,083     37,775     412,308       487,859        347
               Percent                   61.7%       5.2%       56.5%         66.9%
              Value                      $244.3      $35.8      $208.5        $280.1
               Percent                   56.5%       7.0%       49.5%         63.5%
              Missed Opportunities
              Total Transactions        278,913     37,775     241,137       316,688        183
               Percent                   38.3%       5.2%       33.1%         43.5%
              Value                       $23.5       $3.1       $20.4         $26.6
               Decrease in Costs          $19.8       $2.7       $17.1         $22.5
               Rebates                     $3.7        $.6        $3.1          $4.3
                  Source: VA OIG statistical analysis of VA medical facilities non-purchase card
                  micro-purchases

VA Office of Inspector General                                                                      13
                                                   Audit of VHA’s Non-Purchase Card Micro-Purchases


Appendix C          Categories of Non-Purchase Card Micro-Purchases

                    Table 5 lists the categories of sampled micro-purchase transactions where the
                    eight audited VA medical facilities could have used purchase cards.

Table 5
                                      Categories of Micro-Purchase Transactions

                      Acquisitions and Materials
                                                             Medical Supplies
                      Management Supplies

                      Ambulatory Care Services and
                                                             Mental Health Services
                      Supplies

                      Biomedical Supplies                    Neurological Supplies

                      Cardiology Services and Supplies       Nursing Services and Supplies

                      Chaplain Supplies                      Operating Room Supplies

                      Counseling Services                    Pain Clinic Supplies

                                                             Pathology Lab Services and
                      Dental Services
                                                             Supplies

                      Dermatology Supplies                   Pharmacy Supplies

                      Educational Services                   Psychiatry Supplies

                      Engineering Services                   Radiology Services and Supplies

                      Environmental Management               Research and Development
                      Services and Supplies                  Supplies

                      Facilities Management Services and
                                                             Surgery Services and Supplies
                      Supplies

                      Food Services                          Telephone Services

                                                             Utilities (Natural Gas, Water, and
                      Human Resource Services
                                                             Electric Services)

                      Information Technology Services
                                                             Women’s Clinic Supplies
                      and Supplies




VA Office of Inspector General                                                                    14
                                                  Audit of VHA’s Non-Purchase Card Micro-Purchases


Appendix D          Potential Monetary Benefits in Accordance                                With
                    Inspector General Act Amendments



                                                                    Better Use     Questioned
      Recommendation             Explanation of Benefits
                                                                     of Funds        Costs

                                 Decreased transaction-
                                 processing costs by
                                 increasing VA medical
              1–4                                                   $100 million        $0
                                 facility purchase card use for
                                 micro-purchases over 5
                                 years.
                                 Additional purchase card
                                 rebates from increasing VA
              1–4                medical facility purchase          $20 million         $0
                                 card use for micro-purchases
                                 over 5 years.

                                                          Total:    $120 million        $0


          Note: We calculated the $100 million by rounding the statistically projected
          $19.8 million annual decreased transaction-processing costs to $20 million
          then multiplied the estimated annual savings by 5 years ($20 million
          x 5 years = $100 million). We calculated the $20 million by rounding the
          statistically projected $3.7 million additional rebates to $4 million then
          multiplied the estimated annual rebates by 5 years ($4 million x 5 years
          = $20 million). Our estimate of $120 million has 90 percent confidence
          interval of $102 to $133 million.




VA Office of Inspector General                                                                 15
                                                        Audit of VHA’s Non-Purchase Card Micro-Purchases


Appendix E               Under Secretary for Health Comments



                Department of                                 Memorandum
                Veterans Affairs
        Date:
                    July 5, 2013
        From:
                    Under Secretary for Health (10)
        Subj:
                    Office of Inspector General Draft Report, Audit of Non-Purchase Card
                    Micro-Purchases (VAIQ 7362478)
         To:
                    Assistant Inspector General for Audits and Evaluations (52)

                1.	 I have reviewed the draft report and concur with all four of the report’s
                    recommendations. Attached is the action plan that establishes deadlines for
                    addressing OIG’s recommendations within one year of the expected report
                    publication date of July 2013.

                2.	 However, I do not concur with the Office of Inspector General’s (OIG) estimate
                    of Potential Monetary Benefits in the amount of $120 million because the
                    categories of micro-purchase transactions listed in the report could be
                    purchased using other Veteran Health Administration approved methods of
                    payment and may not have been candidates for purchase through a
                    Government Purchase Card. Additionally, because OIG’s estimation is not
                    based on comprehensive calculation of savings across VHA but rather
                    projected from a sample review, VHA respectfully request OIG publish the
                    range of Potential Monetary Benefit – in other words, the lowest and highest
                    monetary values generated by the confidence interval for the estimation.

                3.	 Thank you for the opportunity to review the draft report. If you have any
                    questions, please contact Karen M. Rasmussen, Director, Management
                    Review Service (10AR) at (202) 461-6643.




                    Attachment




VA Office of Inspector General                                                                       16
                                             Audit of VHA’s Non-Purchase Card Micro-Purchases


                     VETERANS HEALTH ADMINISTRATION (VHA)
                                  Action Plan

OIG Draft Report, Audit of Non-Purchase Card Micro-Purchases (VAIQ 7362478)
Date of Draft Report: June 18, 2013

Recommendations/                       Status                       Completion
Actions                                                             Date

Recommendation 1. We recommend the Under Secretary for Health collaborate with the
VA Office of Management to establish policies and procedures to regularly identify and
evaluate the universe of micro-purchases and non-purchase card micro-purchases to
monitor the level of Veterans Health Administration use of purchase cards.

VHA Comments Concur

VHA Procurement and Logistics Office (P&LO) will generate a report that identifies all
purchases below the micro-purchase threshold level for FY2012. P&LO will identify the
number and amount of micro-purchases that have been obligated through VHA procurement.
The two offices will establish monthly monitors of the total universe of micro-purchase
thresholds and the number of micro-purchases effected through the procurement organization.
                                                In process          November 30, 2013

Recommendation 2. We recommend the Under Secretary for Health establish annual and
long-term strategic goals to increase the percentage of VA medical facility micro-purchases
made with purchase cards.

VHA Comments Concur

VHA P&LO, in conjunction with the VHA CFO, will establish performance targets to increase
the percent of micro-purchases made with government purchase cards. Performance of Veterans
Integrated Service Networks (VISN) will be reviewed on a monthly basis with VISNs.
                                                In process          December 31, 2013

Recommendation 3. We recommend the Under Secretary for Health implement
mechanisms to ensure purchasers and approvers adequately consider purchase card use
for micro purchases.

VHA Deputy Under Secretary for Health for Operations and Management (10N) will develop
recommended policies for VISNs to perform periodic reviews of micro-purchases utilizing the
government purchase card. Periodic reviews will be performed by VISN Financial Quality
Assurance Managers (FQAM).
                                       In process            December 31, 2013

Recommendation 4. We recommend the Under Secretary for Health modify policies and
procedures requiring Veterans Integrated Service Networks to perform oversight of

VA Office of Inspector General                                                            17
                                          Audit of VHA’s Non-Purchase Card Micro-Purchases


non-purchase card micro-purchases that identifies opportunities for increased use of
purchase cards.

VHA Comments Concur

VHA PLO will update internal review policies to include review of non-purchase card
micro-purchases. These results will be communicated to VISN Directors through the VHA
Network Contract Managers on a monthly basis.

                                    In process           December 31, 2013

Veterans Health Administration
July 2013




VA Office of Inspector General                                                         18
                                         Audit of VHA’s Non-Purchase Card Micro-Purchases


Appendix F          Office of Inspector       General       Contact       and     Staff
                    Acknowledgments

                      OIG Contact	       For more information about this report, please
                                         contact the Office of Inspector General at
                                         (202) 461-4720.

                      Acknowledgments	   Kent Wrathall, Director
                                         George Boyer
                                         Lee Giesbrecht
                                         Nathaniel Holman
                                         Jill Holston
                                         Leon Roberts
                                         Al Tate
                                         Nelvy Viguera Butler
                                         Alvin Wiggins




VA Office of Inspector General                                                        19
                                                Audit of VHA’s Non-Purchase Card Micro-Purchases


Appendix G          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Health Administration
                    Veterans Benefits Administration
                    National Cemetery Administration
                    Assistant Secretaries
                    Office of General Counsel

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget


                    This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                               20
